Semiannual Report To
The Congress




October 1, 2004 – March 31, 2005




Office of
Inspector General
Department of the Treasury
                                  HIGHLIGHTS IN BRIEF
During this semiannual reporting period, our Office of Audit issued 36 audit and evaluation
reports which identified, in total, approximately $49 million in monetary benefits. Our Office
of Investigations’ work resulted in 7 convictions by plea agreement, 3 indictments, 5
informations, 19 State and local charges, and 21 cases accepted for prosecution.
Investigative activities also resulted in over $5 million in court ordered restitution and
investigative recoveries as well as 13 personnel actions. Some of the significant results for
this period are described below:

•   The audit report on the Department of the Treasury’s fiscal year 2004 consolidated
    financial statements was issued on November 15, 2004, representing the third year
    Treasury has successfully reported its financial results on an accelerated basis. While
    these financial statements received an unqualified opinion, the audit identified one
    material weakness related to IRS financial management. Also, the audit found that
    Treasury was not in substantial compliance with the Federal Financial Management
    Improvement Act, a longstanding condition.

•   We completed three audits related to FinCEN’s administration of the Bank Secrecy Act
    (BSA). As a follow-up audit, we found continued data quality problems with suspicious
    activity reports (SAR) filed by financial institutions under the BSA. In response, FinCEN
    management has taken and planned actions that should improve the quality of SARs. In
    another audit, we found that the BSA E-Filing system, which FinCEN implemented in
    response to a USA PATRIOT Act requirement, was an effective mechanism for filing reports
    required under the BSA. BSA E-Filing reduces processing time; provides controls to improve
    the accuracy, completeness, and security of BSA data; and, if used instead of paper
    processing, could significantly reduce the cost of processing BSA reports. However, we
    found that as of October 2003, BSA E-Filing was not widely used. In response to a
    Congressional mandate, we completed an audit of FinCEN’s efforts to establish an Office of
    Compliance. We found that the Office was in the process of staffing up but at the time of
    our review, we were unable to make a fully informed assessment of the sufficiency of the
    planned staffing because FinCEN management needs to determine the nature and extent of
    the Office’s workload. We also reported that FinCEN had executed a memorandum of
    understanding (MOU) with Federal bank regulatory agencies to share information related to
    BSA compliance, and had achieved a satisfactory level of cooperation so far under the MOU.
    However, we noted that the MOU provided no penalty for non-compliance.

•   In March 2005, two individuals were sentenced as a result of our joint investigation with
    FDIC OIG and the FBI into the Sinclair National Bank failure. One of the individuals was
    sentenced to 5 years incarceration with 3 years supervised release and ordered to pay
    $4.2 million in restitution. The other individual was sentenced to 2 years probation and
    fined $5,000.

•   As a result of our joint investigation with the HUD OIG into fraudulent predatory lending
    practices, an individual was indicted in November 2004 on 13 counts of Fictitious
    Government Financial Instruments. The individual used fraudulent bill of exchange
    instruments to purchase approximately $1.6 million in real estate from low income
    families.
A MESSAGE FROM THE INSPECTOR GENERAL
I am pleased to present the Department of the Treasury (Treasury),
Office of Inspector General (OIG) Semiannual Report summarizing
activities for the 6-month period from October 1, 2004, through
March 31, 2005.

I was sworn in on April 5, 2005 as the fifth Treasury Inspector
General. Prior to that, I served for nearly 2 years as the Inspector
General of the Small Business Administration. Therefore, the work
described in this Semiannual Report was performed under the
direction of Deputy Inspector General Dennis Schindel, who served as
the Acting Inspector General for almost a year prior to my swearing
in. I want to thank Mr. Schindel for his outstanding leadership of the
OIG during this time.

With a staff of 95, the OIG is committed to helping improve the
Department’s operations. As an independent and objective reviewer,
evaluator, and investigator of the operations and activities of the
Department, the OIG seeks to identify and prevent potential
vulnerabilities and fraud in the Department’s programs, promote
effective program management, ensure sound financial management,
improve information security, and uphold the integrity of Treasury’s
people and programs.

I look forward to working with Secretary Snow and the other senior
leadership of the Department, along with the Congress, in achieving
these objectives.




                                          Harold Damelin
                                          Inspector General
This Page Intentionally Left Blank
                               Table of Contents

Highlights in Brief

A Message From The Inspector General

Introduction ..................................................................................................   1

        OIG Values ..........................................................................................      2
        About Treasury ....................................................................................        2

Significant Audits and Evaluations ...................................................................            5

        Financial Management ...........................................................................           5
        Attestation Engagements .......................................................................            8
        Information Technology .........................................................................           9
        Programs and Operations .......................................................................           10

Significant Investigations ................................................................................       17

Other OIG Activity and Accomplishments .........................................................                  25

Statistical Summary .......................................................................................       27

        Summary of OIG Activity.......................................................................            27
        Significant Unimplemented Recommendations ..........................................                      29
        Summary of Instances Where Information Was Refused ............................                           31
        Listing of Audit and Evaluation Reports Issued .........................................                  31
        Audit Reports Issued with Questioned Costs ............................................                   35
        Audit Reports Issued with Recommendations That
           Funds be Put to Better Use ................................................................            36
        Contract Audits Completed ....................................................................            36
        Previously Issued Audit Reports Pending Management Decisions ................                             37
        Significant Revised Management Decisions ..............................................                   37
        Significant Disagreed Management Decisions ...........................................                    37
        References to the Inspector General Act as Amended ...............................                        38

Acronyms .....................................................................................................    39
This Page Intentionally Left Blank
                            Introduction


      he Treasury’s Office of Inspector General (OIG) was established pursuant to the

T     1988 amendment to the Inspector General Act of 1978, 5 United States Code
      (USC) Appendix 3. The OIG is headed by an Inspector General who is appointed
by the President of the United States, with the advice and consent of the United States
Senate. Serving with the Inspector General in the immediate office is a Deputy
Inspector General. The OIG performs independent and objective reviews of Treasury
programs and operations, except for the Internal Revenue Service (IRS), and keeps the
Secretary of the Treasury and Congress fully informed of problems, deficiencies, and
the need for corrective action. The Treasury Inspector General for Tax Administration
(TIGTA) performs audit and investigative services related to the IRS.

The OIG is organized into four divisions: (1) Office of Audit, (2) Office of Investigations,
(3) Office of Counsel, and (4) Office of Management.

The Office of Audit (OA) performs audits and evaluations. The Assistant Inspector
General for Audit has two deputies. One deputy is primarily responsible for
performance audits while the other deputy is primarily responsible for financial
management and information technology audits. OA Headquarters is located in
Washington, DC, and maintains field audit offices in Boston and San Francisco.

The Office of Investigations (OI) performs investigations and conducts proactive
initiatives that are aimed toward the detection and prevention of fraud, waste, and
abuse in Treasury programs and operations. OI also manages the Treasury OIG Hotline
System to facilitate the reporting of allegations involving the programs and activities
under the auspices of the Department. The Assistant Inspector General for
Investigations is responsible for the supervision and conduct of all investigations
relating to the Department’s programs and operations and performs integrity oversight
reviews within select Treasury bureaus. OI headquarters and criminal investigative field
staff are co-located in Washington, DC.

The Counsel to the Inspector General serves as the senior legal counsel and policy
advisor to the Inspector General, Deputy Inspector General, and the Assistant
Inspectors General. The Office of Counsel (OC) provides legal advice on issues that
arise from statutorily mandated audit, investigative, and oversight activities performed
by OA and OI. The OC also provides the OIG with legal advice related to government
contracts, appropriations, budget formulation and execution, disclosure, records
retention, tax information safeguards, equal employment opportunity, and personnel
law. Additionally, OC represents the OIG in administrative proceedings before the Merit
Systems Protection Board and the Equal Employment Opportunity Commission.
Furthermore, the OC conducts the OIG’s ethics training, financial disclosure, and
Freedom of Information Act programs.




  Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005           1
                                Introduction

     The Office of Management provides a range of services designed to maintain the OIG
     administrative infrastructure. These services include: asset management; budget
     formulation and execution; financial management; information technology; and
     Office-wide policy preparation, planning, emergency preparedness, and reporting for the
     OIG. The Assistant Inspector General for Management is in charge of these functions.

     As of March 31, 2005, the OIG had 95 full-time staff onboard. The OIG’s fiscal year
     2005 appropriation is $16.368 million.

OIG Values
     The values of the OIG include producing high quality products that are accurate, timely,
     relevant, and responsive to the needs of decision-makers. We strive to ensure
     integrity, independence, objectivity, proficiency, and due care in performing our work.
     The OIG promotes teamwork and open communication among its organizational
     components. The OIG encourages and rewards its workforce for innovation, creativity,
     dedication, and productivity. Finally, the OIG fosters an environment of respect, equal
     opportunity, and diversity among its workforce.

About Treasury
     The mission of the Department of the Treasury is to promote the conditions for
     prosperity and stability in the United States and encourage prosperity and stability in
     the rest of the world. Organized into bureaus and offices, the Treasury encompasses a
     wide range of programmatic and operational activities. Currently, the Treasury is
     comprised of approximately 114,000 Full-time Equivalent (FTE) staff. Of this
     workforce, the IRS has approximately 99,000 FTE staff and the other Treasury bureaus
     and offices have approximately 15,000 FTE staff.

Treasury Bureaus

     Alcohol and Tobacco Tax and Trade Bureau (TTB) enforces and administers laws
     covering the production, use, and distribution of alcohol and tobacco products. TTB
     also collects excise taxes for firearms and ammunition.

     Bureau of Engraving and Printing (BEP) designs and manufactures U.S. currency, many
     stamps, securities, and other official certificates and awards.

     Bureau of the Public Debt (BPD) borrows the money needed to operate the Federal
     Government. It administers the public debt by issuing and servicing U.S. Treasury
     marketable, savings, and special securities.




2       Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
                                  Introduction

      Financial Crimes Enforcement Network (FinCEN) supports law enforcement
      investigative efforts and fosters interagency and global cooperation against domestic
      and international financial crimes. It also provides U.S. policy makers with strategic
      analyses of domestic and worldwide trends and patterns.

      Financial Management Service (FMS) receives and disburses all public monies,
      maintains government accounts, and prepares daily and monthly reports on the status
      of U.S. Government finances.

      Internal Revenue Service (IRS) determines, assesses, and collects internal revenue in
      the United States.

      U.S. Mint (Mint) designs and manufactures domestic, bullion, and foreign coins as well
      as commemorative medals and other numismatic items. The Mint also distributes U.S.
      coins to the Federal Reserve banks as well as maintains physical custody and
      protection of our nation's gold and silver assets.

      Office of the Comptroller of the Currency (OCC) charters, regulates, and supervises
      national banks to ensure a safe, sound, and competitive banking system that supports
      the citizens, communities, and economy of the United States.

      Office of Thrift Supervision (OTS) regulates all federal and many state-chartered thrift
      institutions, which include savings banks and savings and loan associations.

Treasury Offices

      Departmental Offices (DO) formulates policy and manages Treasury operations.

      Office of Terrorism and Financial Intelligence (TFI) provides policy, strategic, and
      operational direction to the Department of the Treasury on issues relating to
      implementation of the Titles I and II of the Bank Secrecy Act (financial record keeping
      and reports of currency and foreign transactions), U.S. economic sanctions programs,
      combating terrorist financing, combating financial crimes (including money laundering,
      counterfeiting, and other offenses threatening the integrity of the banking and financial
      systems), other enforcement matters, intelligence analysis and coordination functions,
      and security functions and programs of Treasury. TFI includes two major components:
      the Office of Terrorist Financing and Financial Crimes (TFFC) and the Office of
      Intelligence and Analysis (OIA). TFFC is responsible for TFI’s enforcement functions
      and for integrating the FinCEN, Office of Foreign Assets Control (OFAC), and the
      Treasury Executive Office of Asset Forfeiture (TEOAF). TFFC also works in close
      partnership with the IRS’s Criminal Investigations unit (IRS-CI). OIA is responsible for
      intelligence functions and building analytical capability on terrorist financing by
      coordinating and overseeing work involving intelligence analysts in all components of
      Treasury. OIA is responsible for ensuring that the intelligence needs of FinCEN and

        Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005            3
                                 Introduction

    OFAC are met, and for providing intelligence support to Treasury senior officials on a
    wide range of international and other relevant issues. FinCEN administers the Bank
    Secrecy Act; supports law enforcement, intelligence, and regulatory agencies through
    sharing and analysis of financial intelligence; builds global cooperation with counterpart
    financial intelligence units; and networks people, ideas, and information. OFAC
    administers and enforces economic and trade sanctions based on U.S. foreign policy
    and national security goals against targeted foreign countries, terrorists, international
    narcotics traffickers, and those engaged in activities related to the proliferation of
    weapons of mass destruction. TEOAF administers the Treasury Forfeiture Fund (TFF),
    which supports Treasury’s national asset forfeiture program in a manner that results in
    Federal law enforcement’s continued effective use of asset forfeiture as a law
    enforcement sanction to punish and deter criminal activity. TFF is the receipt account
    for non-tax forfeitures made by IRS-CI and the following Department of Homeland
    Security agencies: U.S. Immigration and Customs Enforcement, U.S. Customs and
    Border Protection, U.S. Secret Service, and U.S. Coast Guard.

    Office of International Affairs advises and assists in the formulation and execution of
    U.S. international economic and financial policy, including the development of policies
    with respect to international financial, economic, monetary, trade, investment, bilateral
    aid, environment, debt, development, and energy programs, including U.S. participation
    in international financial institutions.

    Exchange Stabilization Fund (ESF) is used to purchase or sell foreign currencies to hold
    U.S. foreign exchange and Special Drawing Rights assets, and to provide financing to
    foreign governments. All operations of the ESF require the explicit authorization of the
    Secretary of the Treasury.

    Community Development Financial Institutions Fund (CDFI Fund) expands the
    availability of credit, investment capital, and financial services in distressed urban and
    rural communities.

    Federal Financing Bank (FFB) provides Federal and Federally assisted borrowing,
    primarily to finance direct agency activities such as construction of Federal buildings by
    the General Services Administration and meeting the financing requirements of the U.S.
    Postal Service.

    Office of D.C. Pensions makes Federal benefit payments associated with the District of
    Columbia (DC) Retirement Programs for police officers, firefighters, teachers, and
    judges.

    Air Transportation Stabilization Board (ATSB) issues Federal credit instruments (loan
    guarantees) to assist air carriers that suffered losses as a result of the terrorist attacks
    on the United States that occurred on September 11, 2001.



4     Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
         Significant Audits and Evaluations

Financial Management

  Consolidated Financial Statements

  An Independent Public Accountant (IPA), working under OIG supervision, issued an
  unqualified opinion on the Department of the Treasury’s fiscal year 2004 consolidated
  financial statements. We audited and expressed an unqualified opinion on the
  Department’s fiscal year 2003 consolidated financial statements. The fiscal year 2004
  audit identified two reportable conditions related to (1) financial management and reporting
  at the IRS, and (2) electronic data processing controls over financial systems at FMS. The
  reportable condition related to financial management and reporting at the IRS is considered
  a material weakness. The IPA also reported that the Department’s financial management
  systems are not in substantial compliance with the Federal Financial Management
  Improvement Act of 1996 (FFMIA). In addition, the audit identified two other instances of
  reportable noncompliance with laws and regulations. (OIG-05-007)

                                The Department’s ability to maintain unqualified audit
                                opinions while accelerating its performance and
                                accountability reporting for 3 consecutive years has clearly
                                established it as a leader in federal financial reporting.
                                Another significant achievement during the fiscal year 2004
                                financial audit cycle was the progress made by certain
                                bureaus in addressing information security weaknesses
                                identified in prior years’ audits. As a result, the only bureau
                                that continues to have a material weakness in information
  security reported in connection with its annual audit is the IRS.

  Also in connection with its audit of Treasury’s consolidated financial statements, the IPA
  issued a management letter that identified other matters, not required to be included in its
  report on the financial statements, where Treasury could improve the quality and efficiency
  of financial reporting. Specifically: (1) financial reporting standards for Department
  component entities should be consistent; (2) analysis of financial reports at the Department
  level should be improved; (3) Fund Balance with Treasury reconciliations should be
  prepared on a consistent basis; (4) the ESF budgetary accounting methodology should be
  clarified; (5) segregation of duties should be strengthened related to the Treasury
  Information Executive Repository (TIER), the financial management system that collects
  monthly bureau and program office financial data; and (6) access control should be
  strengthened for TIER and CFO Vision, the financial management system that produces the
  consolidated financial statements. (OIG-05-017)

  Federal Financial Management Improvement Act of 1996

  The following instances of FFMIA non-compliance were reported in connection with the
  fiscal year 2004 audits. The current status of these FFMIA non-compliances, including



        Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005         5
            Significant Audits and Evaluations
    progress in implementing remediation plans, will be evaluated as part of our audit of
    Treasury’s fiscal year 2005 financial statements.

                                                         Fiscal Year First
Entity                    Condition                        Reported for      Type of Non-Compliance
                                                         FFMIA Purposes
                                                                               Federal Financial
           General control weaknesses may affect
FMS                                                           1997           Management Systems
                information in FMS system.
                                                                             Requirements (FFMSR)
         The general ledger does not conform to the
 IRS                                                          1997           Standard General Ledger
         U.S. Government Standard General Ledger.
           IRS lacks an effective audit trail from its
 IRS      general ledger back to subsidiary detailed          1997                   FFMSR
         records and transaction source documents.
         Material weaknesses related to controls over                           FFMSR, Federal
 IRS      unpaid tax assessments, tax revenue and             1997            Accounting Standards
               refunds, and computer security.
          IRS cannot rely solely on information from
 IRS        its general ledger to prepare financial           1997                   FFMSR
                          statements.
           IRS lacks a subsidiary ledger for unpaid
 IRS                                                          1997                   FFMSR
                        assessments.


    Other Financial Audits

    The Chief Financial Officers (CFO) Act as amended by the Government Management
    Reform Act of 1994 (GMRA), requires annual financial statement audits of Treasury and
    Office of Management and Budget (OMB)-designated entities. In this regard, OMB has
    designated IRS for annual financial statements audits. The financial statements of certain
    other Treasury component entities are audited pursuant to other requirements, or due to
    their materiality to Treasury’s consolidated financial statements. The OIG is also required
    to perform certain other financial related reviews. The following table shows audit results
    for fiscal years 2004 and 2003.




6          Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
           Significant Audits and Evaluations

                           Treasury Audited Financial Statements and Related Audits
                                         Fiscal Year 2004 Audit Results            Fiscal Year 2003 Audit Results
                                                                  Other                                      Other
                                                   Material                                 Material
Entity                                 Opinion                  Reportable   Opinion                       Reportable
                                                  Weakness                                 Weakness
                                                                Conditions                                 Conditions
GMRA/CFO Requirements
  Treasury Department                    UQ            1             1          UQ             2               1
  IRS (A)                                UQ            4             2          UQ             4               2
Other Required Audits
  BEP                                    UQ            0             0          UQ             0               0

  CDFI Fund                              UQ            0             0          UQ             0               0
  Office of DC Pensions                  UQ            0             0          UQ             0               0

                                         UQ            0             0          UQ             0               0
  ESF

  FFB                                    (B)           (B)          (B)         UQ             0               0
 OCC                                     UQ            0             1          UQ             0               2
 OTS                                     UQ            0             0          UQ             0               0
 TFF                                     UQ            0             1          UQ             0               1
 Mint
    Financial Statements                 UQ            0             0          UQ             0               0
    Custodial Gold and
                                         UQ            0             0          UQ             0               0
      Silver Reserves
Material to Treasury Department Financial Statements
 BPD
    Schedule of Federal Debt (A)         UQ            0             0          UQ             0               0
    Government Trust Funds               UQ            0             0          UQ             0               0
    Schedule of Loans
                                         (C)           0             0          UQ             0               0
      Receivable
  FMS
    Treasury Managed Accounts              UQ            0            0          UQ              0               0
     Operating Cash of the Federal
                                           UQ            0            1          UQ              1               0
       Government
  TTB Schedule of Custodial
                                            (C)          0            0          UQ              0               3
    Activities
  International Assistance
                                           (D)           0            0          (D)             0               1
    Programs
UQ Unqualified Opinion
(A) Audited by the U.S. Government Accountability Office.
(B) Audit report not issued as of March 31, 2005.
(C) Separate schedule was not prepared and audited in fiscal year 2004. Related accounts were audited, and any
     required follow-up on prior year internal control weaknesses was performed as part of the audit of the Treasury’s
     consolidated financial statements.
(D) Significant accounts of the International Assistance Programs were audited as part of the fiscal years 2004 and
     2003 Treasury Department consolidated financial statement audits. No separate audit reports were issued. These
     accounts were considered materially accurate.




          Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005                                  7
           Significant Audits and Evaluations
    The fiscal year 2004 IPA audits of Treasury entities, performed under our supervision,
    noted reportable conditions related to (1) effectiveness of computer controls at FMS
    pertaining to the Operating Cash of the Federal Government (OIG-05-008), (2) accounting
    for undelivered orders at OCC (OIG-05-003), and (3) accounting for indirect overhead
    expenses of the national seized property contractor by TFF (OIG-05-016). These
    reportable conditions were not considered material weaknesses. We also issued a
    management letter in connection with our fiscal year 2004 audit of the Mint’s Schedule of
    Custodial Gold and Silver Reserves which identified an internal control weakness related to
    inventory verification policies and procedures. (OIG-05-029)

Attestation Engagements

    Bureau of the Public Debt Trust Fund Management Branch Schedules

    An IPA, working under OIG supervision, issued an unqualified opinion that the assertions
    pertaining to the BPD Trust Fund Management Branch (TFMB) Schedules for Selected Trust
    Funds for the Period October 1, 2003, to September 30, 2004, are fairly stated. These
    schedules relate to the functions performed by TFMB as custodian of the following monies
    and investments: Federal Supplementary Medical Insurance Trust Fund, Federal Hospital
    Insurance Trust Fund, Highway Trust Fund, Airport and Airway Trust Fund, Hazardous
    Substance Superfund Trust Fund, Leaking Underground Storage Tank Trust Fund, Oil Spill
    Liability Trust Fund, Harbor Maintenance Trust Fund, Inland Waterways Trust Fund, and
    the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund. The attestation
    examination identified one deficiency in internal control related to computer server controls
    over access to “in-house” developed programs. No instances of reportable noncompliance
    with laws and regulations were noted. (OIG-05-005)

    Treasury Payment for DC Water and Sewer Services

    The DC Public Works Act of 1954 (P.L. 83-364), as amended,
    requires that bureaus make timely payments for DC water and
    sewer services. The Consolidated Appropriation Act of 2001
    (P.L. 106-554) required the Inspector General to submit a
    quarterly report to the House and Senate Committees on
    Appropriations analyzing the promptness of payments with
    respect to the water and sewer services furnished to the
    Treasury by DC. For the first and second quarters of fiscal
    year 2005, we found that the payments for these services
    were made promptly. In total, FMS forwarded $11.6 million to DC for water and sewer
    services collected from Treasury bureaus and other Federal agencies for the two quarters.
    The requirement for quarterly reports was eliminated by the Consolidated Appropriations
    Act, 2005. (OIG-05-001, OIG-05-023)




8         Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
         Significant Audits and Evaluations

Information Technology

  Fiscal Year 2004 Evaluation of Treasury’s Information Technology Pursuant to the
  Federal Information Security Management Act

  The Federal Information Security Management Act of 2002 (FISMA) requires an annual
  independent evaluation of Treasury’s information security program and practices. An IPA,
  under OIG supervision, performed the fiscal year 2004 evaluation and determined that
  despite notable progress, Treasury has significant deficiencies that constitute substantial
  noncompliance with FISMA. The most important of these deficiencies were:

  •   Treasury’s systems inventory was not accurate, complete, or consistently reported.
      There have been major variances in the number of systems reported year-to-year,
      without adequate reconciliation. The number of systems reported in FISMA changed
      from 708 in fiscal year 2003 to 237 in fiscal year 2004.

  •   The role and reporting structure of Treasury’s Chief Information Officer (CIO) have not
      been clearly defined.

  •   Significant deficiencies at the IRS, as identified in TIGTA’s fiscal year 2004 FISMA
      Report, continue to exist. (OIG-CA-05-001)

  Additional Efforts Needed to Mitigate Security Vulnerabilities in the BEP’s
  Network and Systems

  In support of FISMA, Homeland Security Presidential Directive 7, and OMB Circular A-130,
  Management of Federal Information Resources, we continuously identify fiscal year
  security vulnerabilities that could potentially compromise Department and bureau networks
  and systems, leaving them open to misuse and attacks.

  In March 2003, we completed a vulnerability assessment that identified security
  vulnerabilities in BEP’s network and systems. We recommended that BEP continue to
  prioritize and address the vulnerabilities detected in BEP’s systems and telecommunications
  devices to mitigate risks and threats and provide sufficient protection for BEP’s assets,
  infrastructure, and information.

  We noted that BEP had strategically improved its overall network security. BEP had also
  taken necessary steps to address a number of security vulnerabilities in its network and
  systems, especially those identified in both prior and current audits. However, a number of
  critical vulnerabilities identified in the prior audit report still remain unresolved. Also, we
  identified a number of new vulnerabilities that could expose BEP’s network and systems to
  unauthorized accesses and exploitation.

  We recommended that BEP’s Associate Director (CIO) continue to analyze, prioritize, and
  address the vulnerabilities detected, especially high-risk vulnerabilities, to strengthen the


        Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005             9
            Significant Audits and Evaluations
     bureau’s security posture. By strengthening its information security posture, BEP will be in
     a better position to deter hacker attacks and protect its network and systems from various
     compromises. (OIG-05-024)


Programs and Operations

     Office of Terrorist Financing and Financial Crimes Needs to Refine Measures for Its
     Performance Budget and Implement a Data Collection and Reporting System

     The Executive Office for Terrorist Financing and Financial Crimes (EOTF/FC) was
     established in March 2003 within Treasury to provide policy, strategic, and operational
     direction to the Department on issues relating to terrorist financing, financial crimes,
     money laundering, and other offenses threatening the integrity of the financial system. In
     April 2004, the Department realigned these functions in a newly created office headed by
     the Under Secretary for Terrorism and Financial Crimes.

     The objectives of this audit were to determine if EOTF/FC (now TFFC), in accordance with
     requirements of the Government Performance and Results Act (GPRA), had established
     (1) performance measures and (2) adequate data collection, validation, and reporting
     systems to ensure the goals outlined in the Treasury’s strategic plan were being achieved.

     We found that EOTF/FC developed an initial set of performance measures in June 2003 for
     the fiscal year 2005 budget. However, these measures were not included in the budget
     submission because, at the time, Treasury’s Office of Performance Budgeting (OPB), which
     had responsibility for the budget submission, found the measures to be output rather than
     outcome-oriented, as required by OMB. We also found that EOTF/FC had not implemented
     a routine data collection and recording system to report performance results. During our
     audit, TFFC working in conjunction with the OPB, developed a new set of performance
     measures for the fiscal year 2006 budget submission.

     We recommended that TFFC: (1) implement the recently proposed performance measures,
     adjusted as appropriate based on planned discussions with OMB; (2) implement routine
     data collection and reporting procedures to help manage its operations and report on its
     performance measures, including creating a mechanism to allow TFFC to regularly gather
     reliable data from organizations outside of Treasury; and (3) assess the completeness and
     reliability of its performance measurement data. TFFC agreed to make these changes but
     needs to develop an action plan and timetable to complete this action. (OIG-05-032)

     FinCEN Audits

     Background The Bank Secrecy Act (BSA), enacted in 1970, authorizes the Secretary of
     the Treasury to issue regulations requiring financial institutions to keep records and file
     reports on certain financial transactions. The authority of the Secretary to administer the
     BSA has been delegated to FinCEN. FinCEN, created in 1990, initially focused on the



10         Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
       Significant Audits and Evaluations
detection of financial crimes by providing analytical support to law enforcement
investigations. Its role changed in October 1994, when it absorbed Treasury’s Office of
Financial Enforcement—the office that administered the BSA in conjunction with the IRS
and other government agencies—consolidating into a single antimoney laundering agency
charged with administering the BSA. IRS retained management control over the financial
information reported under the BSA.

                  Two of the more widely used BSA reports include the Currency
                  Transaction Report (CTR) and the Suspicious Activity Report (SAR). CTRs
                  are used to report transactions exceeding $10,000, while SARs are used
                  to report suspicious financial transactions. Law enforcement agencies use
                  SARs to identify potential investigative leads to financial crimes such as
                  money laundering and terrorist financing. Aggregated SAR data is also
analyzed to identify trends and emerging criminal activities, as well as developing
intelligence data. Nearly 1.5 million SARs have been filed with FinCEN from April 1996
through December 2003.

The BSA was amended by the USA PATRIOT Act, which was signed into law in
October 2001. The number of financial institutions subject to BSA reporting requirements
expanded dramatically following passage of the Act, largely due to a provision that requires
non-financial trades and businesses to file a report when receiving over $10,000 in cash or
cash equivalents.

Currently, an estimated 220,000 financial institutions are potentially subject to BSA
reporting and recordkeeping requirements. The institutions include: (1) depository
institutions (banks, thrifts, and credit unions); (2) brokers or dealers in securities;
(3) money services businesses (MSB)—money transmitters; issuers, redeemers, and sellers
of money orders and travelers’ checks; check cashers and currency exchangers; and
(4) casinos and card clubs. However, a much smaller number of institutions,
approximately 25,000 by October 2003, actually filed reports. Institutions can file BSA
reports by paper or electronic means. Electronic filings can be made using cartridge, tape,
diskette, or through BSA E-Filing.

During the period, we completed three audits related to FinCEN’s BSA and USA PATRIOT
Act responsibilities as follows:

•   SAR Data Quality We assessed the status of FinCEN’s implementation of its
    management corrective action plan in response to our December 2002 report entitled
    FinCEN: Reliability of Suspicious Activity Reports (OIG-03-035). In that prior report,
    we raised concerns over longstanding SAR data quality problems and that these data
    problems could adversely affect FinCEN’s ability to meet its core mission relative to the
    BSA and attendant money laundering programs.




      Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005       11
            Significant Audits and Evaluations
         Our follow-up audit found that FinCEN had not
         established data quality standards from which
         SARs could be routinely monitored for data
         quality purposes. While FinCEN began
         implementing the outreach features of the
         corrective action plan, the majority of the
         previously reported control weaknesses and
         conditions remained outstanding. During our
         follow-up audit we also sampled 406 SARs,
         finding that 251 (62 percent) of the SARs
         contained one or more data quality problems
         (i.e., missing, incomplete, inappropriate, and or
         inconsistent information) in a data field critical
         to law enforcement agencies.

         FinCEN management stated that our
         recommendations, when considered
         contextually and accorded the appropriate
         priority in view of the many important
         compliance issues, will assist in better ensuring that SARs contain as much useful
         information as is available to filers. FinCEN generally concurred with our
         recommendations and described the actions taken or planned in response to each
         recommendation. (OIG-05-033)

     •   BSA Direct E-Filing The USA PATRIOT Act
         required FinCEN to develop a highly secure
         network to (1) allow financial institutions to
         file reports as required by BSA regulations and (2) provide financial institutions with
         alerts and other information regarding suspicious activities that warrant immediate and
         enhanced scrutiny. In response, FinCEN developed BSA Direct E-Filing (BSA E-Filing).
         BSA reports filed through BSA E-Filing primarily include CTRs and SARs. Use of BSA
         E-Filing is not mandatory; however, FinCEN promotes electronic filing in support of the
         federal government’s efforts to receive timely BSA information for law enforcement’s
         use to prevent and detect money laundering, terrorist financing, and other financial
         crimes.

         We found BSA E-Filing to be an effective mechanism for filing BSA reports. BSA
         E-Filing reduces processing time; provides controls to improve the accuracy,
         completeness, and security of BSA data; could significantly reduce the cost of
         processing BSA reports if used instead of paper processing; and, was found to be easy
         to use by institutions using the system to file reports. However, as of October 2003
         only about 1 percent of the institutions filing BSA reports had enrolled with FinCEN to
         use BSA E-Filing, and of those, even fewer had actually filed such reports using the
         system. Reasons for not using BSA E-Filing varied. Sixty-three percent of institutions
         not enrolled in BSA E-Filing that we surveyed reported that they were not familiar with



12         Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
       Significant Audits and Evaluations
    the system. Other non-enrollees cited low report volume, insufficient BSA E-Filing
    knowledge, or the lack of Internet capability. Enrolled institutions suggested easier
    user set-up, digital certification/authentication, and data entry could improve BSA
    E-Filing. We recommended that FinCEN increase awareness of BSA E-Filing by working
    with financial regulatory partners to conduct additional outreach efforts to potential
    users of the system. We also recommended that FinCEN evaluate and select certain
    enhancements to BSA E-Filing that could encourage increased enrollment with and use
    of the system. To maximize the benefits to law enforcement and reduce the cost
    associated with paper-filed BSA reports, we recommended as a long-term measure that
    FinCEN assess the feasibility and advisability of mandating the use of the BSA E-Filing
    system. In this regard, Treasury could make better use of the approximately
    $48 million that would be spent over the next 3 years on paper BSA processing, which
    is depicted in the following chart. Management concurred with the recommendations
    in our report. (OIG-05-034)




•   Establishment of the FinCEN Office of Compliance As mandated by the Conference
    Report to the Consolidated Appropriations Act, 2005, we assessed the status of
    FinCEN’s progress in establishing the Office of Compliance. Our office was specifically
    directed to assess: (1) FinCEN’s full-time equivalent (FTE) sufficiency to conduct an
    effective BSA compliance program and (2) the level of cooperation being achieved in
    implementing FinCEN’s planned memoranda of agreements (MOU) with the Federal


      Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005     13
           Significant Audits and Evaluations
        regulatory agencies charged with examination and enforcement responsibilities for BSA
        compliance.

        We found that FinCEN established the Office of Compliance during August 2004, and
        at the time of our review, was actively recruiting to increase its staffing
        from 5 to 22 employees by August 2005. We were unable to make a fully informed
        assessment of FTE sufficiency because FinCEN management needed to determine the
        nature and extent of the Office’s workload. For example, the number, type, and
        complexity of cases likely to be referred to FinCEN on an ongoing basis were not yet
        known. We also found that FinCEN had executed an MOU with the 5 Federal banking
        agencies (OCC, OTS, Federal Deposit Insurance Corporation (FDIC), Board of Governors
        of the Federal Reserve System, and National Credit Union Administration) in
        September 2004, and had achieved a satisfactory level of cooperation under the MOU.
        However, it was still very early in the life of this MOU, the MOU does not provide for
        penalties for non-compliance, and separate MOUs were just being developed with other
        Federal and State regulatory agencies. (OIG-05-030)

     Delayed Mint A-76 Competition Study

     OMB Circular No. A-76 (Revised in May 2003), Performance of Commercial Activities,
     reiterates the longstanding policy of the federal government to rely on the private sector
     for needed commercial services. In general, the Circular requires that federal agencies
     identify activities performed by government personnel as either “commercial” or “inherently
     governmental.” Agencies are then to use a “streamlined” or “standard” competition to
     determine if government personnel should perform a commercial activity. Under the
     Circular, a standard competition study is to be completed and a “performance decision”
     made within 12 months.

     In October 2003, the Mint issued a Public Announcement of OMB Circular A-76 Standard
     Competition Study on United States Mint Preparation of Ready-to-Coin Planchets involving
     the manufacturing processes of blanking, annealing, and upsetting (BAU) of coin blanks.
     Therefore, the decision whether or not to contract out BAU manufacturing processes to
     the private sector or continue performing them with Mint personnel was due near the end
     of October 2004.

     The Congress directed our office to perform a study on the potential and
     cost-effectiveness of expanded use of coin blanks in the production of circulating coins
     and submit a report on our study to the House and Senate Committees on Appropriations
     by April 1, 2004. In letters dated March 23, 2004, we informed the Congress that since
     the Mint had already publicly announced the BAU competition study, the study as
     described in the Conference Report could not be performed. However, we advised that we
     had initiated an audit to determine whether the Mint was conducting the BAU competition
     study in accordance with OMB requirements and Mint policies.




14        Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
       Significant Audits and Evaluations
As discussed in our October 2004 Interim Audit Report on this audit, we found that (1) the
Mint missed certain critical intermediate steps and milestone dates for completing the BAU
competition study (in October 2003), and accordingly, did not complete the study within
the 12-month timeframe required by the Circular; (2) draft performance work statements
(PWS) prepared by the Mint included inconsistent BAU manufacturing specifications and
inspection criteria; (3) the Mint did not prepare the required justification for its decisions
regarding Government Furnished Property (GFP) to be offered to potential
contractors/offerors (bidders); and (4) potential conflicts of interest by Mint officials and
staff involved in the Mint’s A-76 process existed. We recommended that the Mint:
(1) inform the Assistant Secretary for Management and Chief Financial Officer, the
Department’s Competitive Sourcing Official, that the BAU competition study was not
completed within 12 months; (2) establish achievable intermediate steps and milestones
for the study going forward; (3) ensure that manufacturing and inspection criteria in the
PWS are consistent; (4) determine, and appropriately justify, whether government
furnished property will be offered in the PWS; and (5) assign responsibilities for
competitive studies and annual inventories of inherently governmental and commercial
activities consistent with the Circular’s requirements. Mint management agreed with the
findings and recommendations and provided its corrective actions taken and planned to
implement the recommendations. We are continuing to audit the BAU competition study,
which will include follow-up on these matters. (OIG-05-002)

FMS Addressed Recommendations from Earlier Audit to Improve Controls Over the
Access, Disclosure, and Use of Social Security Numbers by Third Parties

                   We performed a follow-up audit on a 2003 audit report on FMS controls
                   over Social Security Numbers (FMS Continues To Improve Its Controls
                   Over the Access, Disclosure, and Use of Social Security Numbers by
                   Third Parties; OIG-03-083). During the previous audit, we found that
                   FMS needed to better document, maintain, and monitor third party
                   agreements to ensure that security requirements were met. We also
                   found that FMS at the time needed to strengthen its general security
controls over Information Technology applications and systems. Ten recommendations
were identified for corrective action. The objective of this audit was to determine the
status of corrective actions taken by FMS in response to the recommendations contained
in the previous report. We found that FMS addressed the recommendations in our prior
report. The recommendations were all closed by January 2004. (OIG-05-022)

Formal Review Process Could Better Ensure Continued Treasury Oversight of
Customs Revenue Activity

Each year the United States collects billions of dollars in duties, taxes, and fees from
importers bringing goods and merchandise into the country. Until recently, the Department
of the Treasury collected this revenue. The Homeland Security Act (HSA) of 2002
transferred the former U.S. Customs Service from Treasury to the Department of
Homeland Security (DHS) in March 2003, along with revenue collection responsibility.


      Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005        15
            Significant Audits and Evaluations
     These revenues are now collected by the U.S. Bureau of Customs and Border Protection
     (CBP), which is also responsible for prescribing regulations and issuing rulings and
     determinations related to international trade.

     Under the HSA, Treasury retained authority to review customs revenue functions.
     Treasury’s Office of Tax Policy reviews certain revenue function regulations and rulings to
     ensure they are implemented in accordance with national tax, trade, and tariff policies.
     This function was formalized in Treasury Order (TO) 100-16, Delegation from the Secretary
     of the Treasury to the Secretary of Homeland Security of general authority over customs
     revenue functions vested in the Secretary of the Treasury as set forth in the Homeland
     Security Act of 2002.

     The objective of our audit was to assess how well this TO was implemented. Although
     Treasury did not have specific documentation in place that would demonstrate its
     effectiveness in fulfilling its responsibilities related to customs revenue, our audit found
     that Treasury reviewed most customs revenue function-related regulations as required.
     However, CBP finalized two regulations without required Treasury review and approval.
     We also noted that determinations and rulings were reviewed in detail on a selective basis.
     Furthermore, we found the Department had not developed policies, procedures, and
     controls to ensure: (1) all matters related to customs revenue that require Treasury review
     were, in fact, submitted by DHS for Treasury review; and (2) the reviews and conclusions
     reached were documented in a consistent manner and subjected to supervisory review
     within the Office of Tax Policy so as to ensure Treasury’s policy objectives are achieved.

     We recommended that the Assistant Secretary for Tax Policy: (1) ensure all customs
     revenue function-related matters requiring Treasury approval or review are provided by
     DHS in accordance with TO 100-16, and (2) establish written procedures regarding the
     Office of Tax Policy’s responsibility for monitoring DHS compliance with TO 100-16. In a
     written response to this report, Treasury indicated actions were taken to implement both
     recommendations. (OIG-05-006)




16         Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
                    Significant Investigations
Senior Executive of Hamilton Bank Pleads Guilty

As reported in our September 2004 Semiannual Report, a 42-count indictment was returned
by the federal grand jury in the Southern District of Florida against Eduardo Masferrer, John
Jacobs, and Juan Carlos Bernace for violation of False Statements to Accountants
(15 USC §78m), Obstruction of Examination of a Financial Institution (18 USC §1517),
making false statements to OCC (18 USC §1001), Conspiracy (18 USC §371), Wire Fraud
(18 USC §343), Securities Fraud (15 USC §78j), and False Filings with the Securities and
Exchange Commission (15 USC § 78m). In 2002, Treasury OIG conducted a Material Loss
Review of Hamilton Bank and determined the bank’s closure was due to unsafe and unsound
practices. Subsequently, a 2-year FDIC and Treasury OIG criminal investigation led to charges
against three former senior executive officers of Hamilton Bancorp and Hamilton Bank, N.A.
One executive also was charged with insider trading.

Case Update Juan Carlos Bernace, President and a Director of Hamilton Bancorp and Hamilton
Bank, pleaded guilty to 2 counts of Securities Fraud (15 USC §78j) before United States
District Court Judge James Lawrence King in Miami, Florida. Bernace faces a maximum
statutory term of imprisonment of 10 years on each count. He also faces a maximum fine of
$1 million as well as restitution. The Hamilton Bank trial is scheduled for later this year.

Businessman Indicted for Misuse of Treasury Seal and Impersonating a Foreign Official

                  As a result of a Treasury OIG investigation concerning the unauthorized use of
                  the United States Treasury Seal and forging the signature of the Treasury
                  Secretary, an individual was arrested and indicted on Federal charges on
                  January 21, 2004, for Bank Fraud (18 USC §1344). On October 30, 2003,
                  Special Agents from Treasury OIG and the United States Secret Service
                  (Secret Service) executed a search warrant at the individual's Chicago
                  residence. The search yielded evidence confirming the subject's involvement
in a variety of financial crimes including the impersonation of a foreign government official.

Case Update Since our last Semiannual Report, superseding indictments were returned
charging violations of Wire Fraud (18 USC §1343), Mail Fraud (18 USC §513a), and Bank
Fraud (18 USC §1341), associated with Advance Fee Schemes (18 USC §1344) in excess of
$400,000 along with the forgery and uttering of over a half million dollars in altered and
counterfeit checks. Further judicial action is pending.




         Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005       17
                    Significant Investigations
District Resident Arrested in Real Estate Scam

                               An investigation conducted by the Treasury OIG resulted in the
                               arrest of a Washington, DC resident for intent to defraud the
                               Government. The individual presented to a real estate company
                               a fictitious Department of the Treasury instrument, with the
                               Secretary as the trustee, in the amount of $470,422. On
December 15, 2003, Treasury OIG Special Agents arrested the subject for Uttering a
Worthless Instrument, in violation of 22 DC Code, Sections 3241, 3241(c) (2001 ed.).

Case Update Further investigation in this case led the OIG and the Secret Service Metro Area
Fraud Task Force to execute an arrest warrant for subject on charges of Obstruction of
Justice, 22 DC Code, Section 722, for making threats against a criminal investigator. The
investigation also led to the execution of a search warrant at the subject’s residence.
Following his arrest, the subject was ordered by the Superior Court Judge to be incarcerated
pending trial which is scheduled for April 2005.

Cigarette Licensee Exceeds Limit on Purchase of Cigarettes and Arrested on Credit
Card Fraud and Identity Theft Charges

The Treasury OIG, U.S. Postal Inspection Service, and the Federal
Bureau of Investigation (FBI) executed a federal search warrant on
the residence of a Richmond, VA couple. The search warrant was
the result of an ongoing federal investigation involving Identity
Fraud and over $800,000 in Bank/Credit Card Fraud related to the
purchase and resale of $2.5 million in cigarettes. Using stolen
credit cards for payment, the couple, licensees of TTB, structured
cigarette purchases equating to amounts well in excess of their licensed limit, thereby denying
TTB revenue.

Case Update On February 9, 2005, the couple pled guilty in federal court on Bank Fraud
(18 USC §1344) and Conspiracy (18 USC §371) charges. The husband, Mohamed Ahmed,
was sentenced to 57 months in jail, 3 years supervised probation, and ordered to pay
$734,569 in restitution. Ahmed’s wife, Miriam Salah, was given time served (59 days in jail),
2 years probation, and ordered to pay $15,100 in restitution.

Former FMS Employee and Spouse Plead Guilty to Conspiracy and Other Crimes

As previously reported, a former FMS employee and her spouse were indicted and arrested for
their involvement in an ongoing scheme to defraud the government. From January 1999 to
December 2000, the former employee participated in awarding more than 100 government
training agreements to two software training businesses operated by herself and her spouse.
Payments totaling more than $139,600 were made to two businesses, Computer Image and
C & D Training Consultants.




18       Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
                    Significant Investigations
In September 2004, both subjects pled guilty to 1 count Conspiracy (18 USC §371),
2 counts Wire Fraud (18 USC §1343 and §1346), and 1 count Conflict of Interest
(18 USC §208).

Case Update On February 14, 2005, Veronica Hardy-Everette and Charles Daniel Everette,
were sentenced in United States District Court for the District of Maryland to 1 year
imprisonment and 3 years probation.

Overseas Adviser Admits to False Claims

A Treasury OIG investigation determined that an Office of Technical assistance contract
advisor for financial institutions had bilked the Government by submitting fictitious claims
involving the storage of his personal property and health care expenses while serving overseas
from June 2002 through July 2004. The total amount of his false claims was $16,521. The
advisor was terminated from his contract employment as a result of our investigation.

Case Update This matter has been accepted for criminal prosecution by the United States
Attorney’s Office (USAO) of the District of Columbia. The USAO office has advised the
subject that he is to be charged for submitting false invoices for rental storage and false
invoices concerning his health care cost under False Claims (18 USC §287).

FMS Contractor Employee Sentenced

As a result of a joint investigation with the Secret Service and U.S. Department of Labor OIG,
Anthony Williams pled guilty to eight counts of Forgery (18 USC §510) in June 2004 in the
Eastern District of Pennsylvania. Williams was charged for his involvement in the theft and
forgery of Treasury and private business checks while he
was an employee of Jetsort, a mail sorting contractor of
the FMS.

Case Update On October 4, 2004, Williams was
sentenced to 19 months incarceration, 60 months
supervised release, and ordered to pay restitution of
$4,557. Williams is the last of four subjects to be
prosecuted for the theft and forgery of over 40 checks
valued at approximately $55,000.

Fictitious Bill of Exchange Scam

The Treasury and the Department of Housing and Urban Development OIGs conducted an
investigation involving fraudulent predatory lending practices. Utilizing a fictitious Bill of
Exchange, the subject’s name was associated with an alleged private direct account where the
Treasury Secretary was registered as the trustee. The individual used fraudulent Bill of
Exchange instruments to purchase $1.6 million in real estate from low income families.



         Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005        19
                    Significant Investigations
Case Update On November 17, 2004, an individual was indicted in the U.S. District Court of
Maryland on 13 counts of Fictitious Government Financial Instruments (18 USC §541). The
individual was arrested on November 19, 2004.

Metro Richmond Fraud and Identity Task Force Assist Leads to Federal Bank Fraud
Investigation

Treasury OIG, as a member of the Metro Richmond Fraud and Identity Theft Task Force
(FITTF), received a request for investigative assistance from the Henrico County VA, Police
Department - Economic Crimes Unit after three individuals were arrested on drug and check
fraud charges as a result of a marijuana complaint at a local hotel. During the arrest, patrol
officers seized fraudulent drivers licenses, counterfeit credit cards, two counterfeit checks,
one Cashiers Check ($9,000), and over $20,000 in cash.

The investigation had linked the three subjects to 14 additional account takeovers in the
Eastern District of Virginia involving $112,400 in fraud and a loss of $93,000 to a bank
regulated by the OCC. The investigation is ongoing.

Richmond, VA Woman Robs Postal Carrier of Treasury Check

A joint investigation with the Treasury OIG and the U.S. Postal Inspection Service (USPIS)
resulted in the arrest of a Richmond resident on charges stemming from the robbery “by
physical force” of a U.S. Postal Carrier in July 2004. During the robbery, a U.S. Treasury
Check in the amount of $1,203 was stolen, the payee’s signature forged and negotiated. The
woman intended to use the proceeds to further her other criminal activities, such as
prostitution and drug use.

Case Update On January 25, 2005, Angie Martin pled guilty in Richmond City Circuit Court
to one count each of Grand Larceny (VACC 18.95) and Forgery (VACC 18.270). Martin was
sentenced to 1 year home detention/electronic monitoring, 5 years probation, and was ordered
to pay full restitution of $1,203.

Roanoke, VA Postal Carrier Arrested for Stolen Treasury Checks

Acting on information from the USPIS, Treasury OIG and USPIS Special Agents recovered two
stolen U.S. Treasury Checks valued at $1,564 from the residence of a postal carrier following
the execution of a federal search warrant. The investigation disclosed that while the subject
was performing his duties as a U.S. Postal Carrier, he stole several hundred pieces of U.S.
Mail and concealed them at his residence.

The individual was arrested and charged with Theft of Mail (U.S. Treasury Check) by a Postal
Employee (18 USC §1709). The investigation continues.




20       Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
                    Significant Investigations
MS-13 Gang Members Implicated in the Theft and Forgery of Treasury Checks

                                                   In October of 2004, the Prince George’s
                                                   County Police Department and the Regional
                                                   Area Gang Enforcement Unit (RAGE)
                                                   requested the assistance of the Secret
                                                   Service Task Force regarding the negotiation
                                                   of six stolen United States Treasury Tax
                                                   Refund Checks with losses totaling
                                                   $18,242. The joint investigation revealed
that the stolen Treasury Checks were cashed utilizing counterfeit identification cards and
social security cards. It is common practice for members of the MS-13 to obtain and use false
identification documents in order to assist them in committing other crimes. Through a
coordinated effort of the agencies involved, the investigation has identified two suspects
purported to be associated with MS-13. At this time, a Maryland State arrest warrant has
been issued charging Felony Theft (Maryland Code §7-104), Uttering (Maryland Code
§8-609(b)(2)), and Forgery (Maryland Code §8-601a), for the theft and negotiation of a U.S.
Treasury Check. The OIG, working with RAGE and the Metro Area Fraud Task Force, are
actively seeking the individual for whom this arrest warrant has been issued.

South Carolina Man Indicted on Forgery of U.S. Treasury Checks

                  A joint investigation with the Social Security Administration (SSA) OIG
                  resulted in the indictment of a Columbia, SC man who had been forging and
                  cashing his deceased mother’s widow benefits checks from 1989 until
                  2001. The subject failed to notify the SSA of his mother’s death, and after
                  multiple failed attempts to validate his mother’s health, the SSA
                  discontinued the benefits payments. FMS was unable to locate
documentation recording the death or change in the status of the deceased’s account. The
subject admitted to having forged his mother’s signature on the benefits checks, for a total
loss of $66,799. The USAO for the District of South Carolina indicted the subject on
7 counts of forgery of Treasury checks. These charges relate to the last year of the on-going
fraud.

U.S. Mint Shipment of Nickels Disappears, Five Subjects Arrested

                          In January 2005, the Treasury OIG received a report from the Mint
                          Police regarding the disappearance of a shipment of nickels valued
                          at $180,000. On December 18, 2004, a Mint contractor with his
                          tractor-trailer loaded with nickels departed the Mint facility in New
                          Jersey en route to a Federal Reserve Bank facility in Louisiana. On
                          December 20, 2004, the tractor-trailer was found abandoned near
                          Fort Pierce, Florida, and the driver’s whereabouts were unknown.
                          Acting on a tip from an informant, a consensual search of a farm
in the Miami-Dade County area was conducted by the Drug Enforcement Agency Task Force


         Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005      21
                    Significant Investigations
and the FBI Cargo Theft Task Force. Pursuant to the search, approximately $160,000 worth
of nickels were recovered, a marijuana grow house was identified, and five subjects were
arrested. This incident was the subject of a segment on a recent episode of the television
program, America’s Most Wanted, in efforts to locate the driver of the tractor-trailer.
Investigation continues.

Violation of BEP Security Protocols Leads to Currency Theft

                                      Treasury OIG was notified by BEP Police of a possible
                                      theft of currency from the Western Currency Facility
                                      (WCF) in Ft. Worth, Texas. A joint investigation with the
                                      Secret Service identified a BEP employee who allegedly
                                      removed at least $5,000, in increments of $50 Federal
                                      Reserve Notes, from the WCF. The investigation
                                      determined that the employee circumvented or violated
                                      multiple BEP security policies and procedures. The
                                      suspect has been terminated from BEP, and indictments
are expected later this year in the Northern District of Texas.

Anonymous Complaint Reveals Mint Police Officers’ Acceptance of Gratuities

                  An anonymous complaint alleged that certain members of the Mint Police
                  regularly accepted gratuities in the form of free meals from local merchants
                  in and around the Headquarters Mint Police facility. Evidence gathered
                  revealed 20 Mint Police officers had been accepting meals from 3 restaurant
                  businesses without paying for them on a weekly basis. The estimated value
                  of meals received ranged from $132 to $220 per week. This matter was
presented to the USAO for the District of Columbia who declined criminal prosecution opting
instead for administrative remedies. A Report of Investigation is being prepared.

Former Treasury Franchise Fund CFO Admits to Running an Illegal Parking Program

An investigation was initiated upon receiving a referral from the Franchise Fund that a former
Treasury Franchise CFO misused funds from a parking program. The investigation determined
the former CFO had been running an unauthorized parking service for the tenants of the Fallon
Federal Building in Baltimore, MD. For the past 7 years, this enterprise generated revenue in
excess of $100,000. The subject used most of the revenue to pay personal bills and also to
pay cash to himself.

Facing a formal Notice of Proposed Removal, he retired on January 18, 2005. This case has
been referred to the USAO for the District of Maryland for prosecution, charging the subject
with violation of Salary of Government officials and Employees Payable only by the United
States, (18 USC §209, (supplementation of salary), and Acts Affecting a Personal Financial
Interest (18 USC §208).



22       Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
                    Significant Investigations

DC Resident Arrested and Indicted on Theft and Burglary Charges

On September 27, 2004, the Treasury OIG and DC Metropolitan Police arrested a DC resident
and executed a search warrant as a result of an OIG investigation into thefts from Treasury
and other tenants at an office building in Washington, DC. The investigation revealed that the
subject was also responsible for multiple thefts from other government facilities and
commercial buildings throughout the DC metropolitan area. She was subsequently arrested
and charged in Montgomery County, Maryland, and Washington, DC, for thefts involving the
government agencies. On December 6, 2004, the subject pled guilty in Maryland to
misdemeanor theft charges stemming from her thefts from a government facility.
Investigation continues as the subject continues to cooperate and provide additional
information about her activities.

Senior Executive Misuses Time and Attendance

A Treasury OIG investigation established that a senior executive working in DO had abused
time and attendance procedures. The investigation, predicated on an anonymous complaint,
established that the former employee was absent from work, without taking any leave, for
approximately 46 days, valued at $25,883, from July 2002 through December 2004. The
subject could not explain his excessive leave balance, although in 2002 while a government
employee of another Department, he received $5,841 by settling unused annual leave hours.
The employee resigned from his position in December 2004. This case was referred and
accepted for criminal prosecution by the Public Integrity Section, Department of Justice.

Contractor Misuses Government Purchase Card

                        The Treasury and General Services Administration OIGs conducted an
                        investigation into the misuse of a purchase card of a government fleet
                        vehicle. The investigation determined that an FMS contractor employee
                        charged $650 for purchases for snack food, cigarettes, and condoms.
                        From approximately October 2004 to January 2005, the contractor
                        made numerous unauthorized transactions. The individual was arrested
for Theft (22 DC Code 3811) and his contract employment immediately terminated by FMS.
The individual is awaiting prosecution by the USAO in Washington, DC.

Former INS Attorney Violates Conflict of Interest on FMS Program

The Treasury and Department of Homeland Security OIGs, conducted an investigation into a
former Immigration and Naturalization Service (INS) employee engaged in a conflict of interest
(18 USC §207) when he appeared as a witness on behalf of an insurance company that issues
immigration bonds during a hearing conducted by FMS. During the hearing, the former
employee stated he reviewed the company’s bonds while employed with INS and participated
in settlement discussions involving the Department of Justice and the company. The USAO in
Washington, DC has accepted the case for prosecution for violation of 18 USC §207.


         Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005     23
                   Significant Investigations

Principals of Sinclair Bank Fraud Sentenced

As previously reported, in August 2004, Susan Sinclair Wintermute was convicted by a jury in
the Western District of Missouri of Conspiracy to Commit a False Statement (18 USC §371)
and Making a False Statement (to the OCC) (18 USC §1001), and Clarence Stevens was
convicted of Conspiracy to Commit Bank Fraud (18 USC §371).

Case Update On March 25, 2005, Wintermute and Stevens appeared for sentencing before
U.S. District Judge Scott Wright. Wintermute was sentenced to 2 years probation and fined
$5,000. She was also required to surrender her passport immediately. Stevens was
sentenced to 5 years incarceration, 3 years supervised release, and ordered to pay $4.2
million in restitution to the FDIC.




24       Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
                        Other OIG Activity
                       And Accomplishments

Treasury OIG Hosts Delegation from China

On November 30, 2004, Deputy Inspector General Dennis
Schindel, Assistant Inspector General for Investigations Nick
Swanstrom, Deputy Assistant Inspectors General for Audit Bill
Pugh and Bob Taylor met with a delegation from the Ministry of
Supervision, Peoples Republic of China, including the Director-
General Liu Sen, Sixth Supervisory Department. We discussed
the mission of U.S. Government Inspectors General and the
Treasury OIG. The meeting was arranged by FCC Group
International, Inc. The delegation also visited with other federal
OIGs and agencies during their trip to Washington, DC.

Office of Audit
                                                                      Deputy IG Schindel and
IGATI Curriculum Review Board                                         Director-General Liu Sen


The Inspectors General Auditor Training Institute (IGATI) was created by the President’s
Council on Integrity and Efficiency (PCIE) in December 1990. IGATI provides training to
enhance the skills, abilities, and knowledge of auditors in the federal OIG community. During
this semi-annual period, the IGATI Curriculum Review Board (the Board) was formed under the
leadership of Assistant Inspector General for Audit Marla Freedman. The Board’s mission is to
assist the PCIE Audit Committee in achieving its strategic goal to identify and provide useful,
relevant, and cost-effective auditor training. The Board established a methodology for
reviewing each IGATI course offering. That methodology involves a course materials review,
classroom observations, and focus group discussions with former students and supervisors.
The Board plans to review 12 IGATI courses during fiscal year 2005, and expects to cover all
course offerings during the next 3 years. In addition to Treasury OIG, the Board currently
consists of representatives from the Naval Audit Service and the Offices of Inspector General
at the Agency for International Development, Department of Commerce, Department of
Defense, Department of Education, Department of Energy, Environmental Protection Agency,
Federal Housing Finance Board, General Services Administration, Department of Housing and
Urban Development, Department of the Interior, and Social Security Administration.

2005 PCIE/GAO Financial Statement Audit Roundtable

On March 9, 2005, Bill Pugh served on a panel at the 2005 PCIE/Government Accountability
Office (GAO) Financial Statement Audit Roundtable. The panel also included representatives
from OMB, GAO, and a public accounting firm. Mr. Pugh discussed the factors that have
enabled the Treasury Department to early implement and sustain the accelerated annual
financial statement audits required by OMB, to include detailed planning, the Department’s
improved monthly and quarterly financial reporting, and effective working relationships
between management and the auditors. Mr. Pugh also discussed various aspects of the
working relationships among the OIG, its contracted auditors, and GAO that have enabled
         Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005       25
                          Other OIG Activity
                         And Accomplishments

Departmental as well as Government-wide financial statement audit objectives to be achieved
in the most efficient manner.


Office of Investigations

Office of Investigations Joins Multi-Jurisdictional Task Force to Combat Fraud

In November 2004, the United States Attorney (USA) for the Eastern District of Virginia and
the Attorney General for the Commonwealth of Virginia (AGVA) announced the formation of
the Metro-Richmond Fraud and Identity Theft Task Force.

The following local, state, and federal authorities joined USA and AGVA in committing
resources and personnel from their respective agencies to the task force:
       •    Treasury OIG, Office of Investigations;
       •    United States Postal Inspection Service;
       •    United States Secret Service;
       •    FBI;
       •    Henrico County Police Department;
       •    Richmond Police Department;
       •    Social Security Administration OIG, Office of Investigations;
       •    HUD OIG, Office of Investigations;
       •    Department of Criminal Investigative Services;
       •    Bureau of Immigration and Customs Enforcement;
       •    IRS - CI, Criminal Investigations;
       •    Virginia Department of Motor Vehicles;
       •    Chesterfield County Police Department; and
       •    Virginia State Police.
The task force coordinates and integrates the ongoing efforts of the various agencies and task
forces throughout the U.S. to fight the growing problem of fraud and identity crimes. By
functioning as a repository of expertise and intelligence, the task force will improve the speed,
quality, and effectiveness of law enforcement’s response to these types of cases. The USA
stated: “The formation of this task force is a clear example of the continued commitment of
law enforcement in Virginia to set aside jurisdictional boundaries and pool resources to bring
the combined power of local, state, and federal law enforcement to bear on those who
victimize everyday citizens.” The AGVA added: “Today we are taking yet another important
step forward in our work to protect the citizens of Virginia from those who would steal their
identities, compromise their finances, or otherwise imperil their credit or good name.”

26         Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
                         Statistical Summary

Summary of OIG Activity
For the 12 Months Ended March 31, 2005 (Dollars in Thousands)


                                           4/1/2004 –           10/1/2004 –
             OIG Activity                                                             Period Totals
                                           9/30/2004             3/31/2005
                                 Office of General Counsel Activity
    Regulation and Legislation                          65                   43                   108
    Reviews
    Instances Where Information was       1 continuing issue; originally arose in the previous Semi-
    Refused                                 Annual reporting period; see discussion at page 31.
                                       Office of Audit Activities
    Reports Issued (Audits and                          18                   36                        54
    Evaluations)
    Disputed Audit Recommendations                      0                     0                        0
    Significant Revised Management                      0                     0                        0
    Decisions
    Management Decision in Which                        0                     0                        0
    the IG Disagrees
    Monetary Benefits (Audit)
    a) Questioned Costs                                 $0               $975                  $975
    b) Funds Put to Better Use                          $0            $48,000               $48,000
    c) Revenue Enhancements                             $0                  0                     0
    Total Monetary Benefits                             $0            $48,975               $48,975
                                 Office of Investigations Activities
    Reports of Investigation                             5                     5                       10
    Preliminary Inquiry Closing                          4                    17                       21
    Memorandums
    Number of OIG Hotline Calls                     1,239                   517                 1,756
    Processed
    Allegations – Total Number                        211                   212                   423
    Processed
    Referrals Made During the Period                  101                   111                  212
    Cases Open at Start of Period                     54*                  113*             61 Start*
    Cases Opened in the Reporting                      58                    46                  104
    Period
    Cases Closed in the Reporting                        6                     9                       15
    Period
    Cases Open at the End of the                     106*                   150               150 End
    Period
    Inquires Open at Start of Period                  10*                   30*             12 Start*

   *7 cases and 2 inquires were inadvertently not tabulated during the last reporting
   period. Tabulations are now corrected.




      Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005                         27
                            Statistical Summary

                                         4/1/2004 –        10/1/2004 –
               OIG Activity                                                   Period Totals
                                         9/30/2004          3/31/2005
     Inquiries Opened in the Reporting                23                 50                   73
     Period
     Inquiries Closed in the Reporting                5                  21                   26
     Period
     Inquiries Open at the End of the             *28                    59           59 End
     Period
     Judicial Actions
     Cases Referred for Prosecution                28                 54                  82
     Cases Accepted for Prosecution                26                 21                  47
     Arrests                                       36                 59                  95
     Search Warrants                               13                 12                  25
     Indictments/Information                       17                  8                  25
     Pleas                                          4                  7                  11
     Conviction by Trial                            2                  0                   2
     Imprisonment (Months)                         27                169                 196
     Home Detention (Months)                       12                  0                  12
     Probation (Months)                           108                300                 408
     Community Service (Hours)                     25                  0                  25
     Administrative Sanctions
     Adverse Personnel Actions                        5                  13                   18
     Contractor                                       1                   1                    2
     Suspensions/Debarments
     Individual                                       4                  5                    9
     Suspensions/Debarments
     Oversight Activities
     Quality Assessment Reviews                       1                   0                    1
     Management Implication Reports                   2                   1                    3
     Fraud and Integrity Briefings                    2                  12                   14
     Monetary Benefits
     Fines                                         $3                 $7                $10
     Restitution                                   $0             $5,019             $5,019
     Recoveries                                    $0                $73                $73
     Settlements                                 $350                 $0               $350
     Savings/Cost Avoidance                      $644                 $0               $644
     Actual Losses Identified                $161,889             $5,167           $167,056
     Potential Losses Identified               $2,491                $48             $2,539

     *7 cases and 2 inquires were inadvertently not tabulated during the last reporting
     period. Tabulations are now corrected.




28     Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
                       Statistical Summary


Significant Unimplemented Recommendations
For Reports Issued Prior to March 31, 2004
  Report     Issue                      Report Title and Recommendation Summary
  Number      Date
OIG-01-014   11/00   Review of Treasury Computer Security Plans
                     The Treasury CIO should: (i) correct system vulnerabilities identified in DO
                     systems, update DO system security plans, ensure through the certification and
                     accreditation process that system security plans are kept up-to-date and that new
                     system vulnerabilities are identified and addressed; and (ii) develop a means to
                     identify all existing and newly developed DO systems. (1 recommendation)
OIG-02-115   9/02    Treasury’s Planning, Management, and Implementation of a Smart Card and
                     Public Key Infrastructure (PKI) Needs Improvement
                     The CIO should ensure that Treasury: (1) establishes a Treasury program to
                     effectively manage smart cards and PKI; (2) develops a program plan defining
                     roles and responsibilities, and milestones and resources needed for smart card
                     and PKI initiatives; (3) plans for adequate staffing of employees to support smart
                     card and PKI infrastructure as enterprise architecture; (4) develops a strategy to
                     consolidate and minimize the number of smart card and PKI administrative
                     systems (inventory management, personnel management, administrative, travel,
                     manpower, etc.); (5) uses another hard token as an interim security measure
                     along with smart cards to provide strong two-factor authentication for digital
                     certificates; and (6) establishes appropriate record management controls for
                     general, sensitive, and secret information related to the Treasury smart card and
                     PKI infrastructure. (6 recommendations)
OIG-02-122   9/02    Community Development Financial Institution (CDFI) Fund
                     The CDFI Fund Director should initiate action to amend the OMB Circular A-133
                     Compliance Supplement to reflect revised accountability requirements for
                     financial assistance funds. (1 recommendation)
OIG-03-007   10/02   Controls Over FinCEN's Law Enforcement Data Need Improvement
                     The FinCEN Director should establish a formal process for approving,
                     transmitting, and maintaining system access authorization forms to reduce the
                     risks associated with granting excessive or unauthorized access privileges,
                     alterations, misunderstandings, and mishandled forms. (1 recommendation)
OIG-03-034   12/02   Audited Financial Statements of the Treasury Forfeiture Fund for Fiscal Years
                     2002 and 2001
                     TEOAF should, for all direct costs and common support costs not directly
                     traceable to individual seizures: (1) develop and implement an allocation process.
                     Indirect costs will have to be applied to the individual seizures. Direct and
                     indirect costs will have to be added together to provide total costs seizure; and
                     (2) vigorously pursue the enhancement of Seized Assets and Case Tracking
                     System (SEACATS) capabilities to record and report expenses at the asset level.
                     (2 recommendations)




     Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005                        29
                            Statistical Summary


     Significant Unimplemented Recommendations
     For Reports Issued Prior to March 31, 2004

     OIG-03-038   12/02   Treasury Departmental Offices' Control Over Computers Needs To Be Improved
                          DO should re-evaluate the method for reporting lost or stolen computers to
                          ensure all losses are reported to the proper authorities. This should include
                          periodic reconciliations between the CIO, Treasury Office of Security and Critical
                          Infrastructure Protection, and the OIG Office of Investigations.
                          (1 recommendation)
     OIG-03-093   8/03    INFORMATION TECHNOLOGY: Treasury’s Cyber-Based Critical Infrastructure
                          Protection Implementation Efforts Remain Inadequate
                          The Treasury CIO should finalize draft documents that are key elements of the
                          Treasury Critical Infrastructure Protection Plan and distribute them to DO and the
                          bureaus, ensuring that DO and the bureaus have the necessary guidance to
                          comply with Presidential Decision Directive 63 requirements. (1 recommendation)
     OIG-04-003   11/03   The Department of the Treasury’s Fiscal Years 2003 and 2002 Financial
                          Statements
                          The Assistant Secretary for Management and Chief Financial Officer should: 1)
                          provide effective oversight to ensure that the specific recommendation detailed in
                          a previous OIG report, and the related plans for corrective actions, are
                          implemented completely and timely by the various bureaus; and (2) oversee
                          efforts to ensure effective financial management structures are established at
                          TTB and International Assistance Program (IAP). (2 recommendations)
     OIG-04-007   11/03   Alcohol and Tobacco Tax and Trade Bureau’s Schedule of Custodial Activities for
                          Fiscal Year Ended September 30, 2003
                          TTB Management should: (1) review the network services and open ports and
                          disable any that are unnecessary, and review and update current policies and
                          procedures to provide clear guidelines for approving which services will run on
                          servers attached to the network; and (2) complete an inventory of all databases
                          within the environment, and ensure that all default passwords have been
                          removed, user and developer access is appropriate, and database server
                          passwords abide by TTB password requirements. In addition, TTB should develop
                          policies and procedures to ensure the database server is periodically scanned for
                          weak or default passwords. (2 recommendations)
     OIG-04-016   12/03   The Department of the Treasury Forfeiture Fund’s Fiscal Years 2003 and 2002
                          Financial Statements
                          TEOAF should: (1) develop an allocation process for all common support costs
                          not directly traceable to individual seizures; and (2) vigorously pursue the
                          enhancement of SEACATS capabilities to record and report total expenses at the
                          asset level. (2 recommendations, repeated from OIG-03-034)




30        Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
                           Statistical Summary


    Significant Unimplemented Recommendations
    For Reports Issued Prior to March 31, 2004

    OIG-04-022    2/04   Management Letter for Fiscal Year 2003 Audit of the Department of the Treasury
                         Financial Statements
                         The Department should: (1) research and determine whether component reporting
                         entities reporting on a basis other than Federal Generally Accepted Accounting
                         Principles (GAAP) are required to do so by statute; that all reporting entities
                         within the Department prepare their financial statements in accordance with
                         Federal GAAP; and entities that are statutorily required to report on a basis of
                         accounting other than Federal GAAP provide supplemental information in their
                         annual reports that meets the reporting requirements of Federal GAAP, to include
                         a Management Discussion and Analyses (MD&A); and (2) implement analytical
                         review procedures as an integral part of interim financial reporting at the
                         individual bureau level as well as the Department level. The results of these
                         analytical reviews should be documented in a brief narrative accompanying the
                         financial reports. (2 recommendations)


This list of unimplemented recommendations in OIG audit reports is based on information in Treasury’s
automated audit recommendation tracking system, which is maintained by Treasury management
officials.



Summary of Instances Where Information Was Refused
October 1, 2004, through March 31, 2005

As discussed in our prior Semiannual Report to the Congress, the OIG sought information from
OCC in connection with an investigation involving a failed bank but OCC questioned the OIG’s
jurisdiction and refused to provide the information. During the last Semiannual period we also
reported that we brought this matter to the Secretary’s attention as well as to the House and
Senate oversight committees. The OIG is continuing efforts to resolve this dispute.


 Listing of Audit and Evaluation Reports Issued
 October 1, 2004, through March 31, 2005

 Financial Audits and Attestation Engagements

 Departmental Offices, FINANCIAL MANAGEMENT: Department of the Treasury
 Payments for Water and Sewer Services Provided by the District of Columbia Were
 Made Timely for the First Quarter of Fiscal Year 2005, OIG-05-001, 10/15/04

 OCC, Audit of the Office of the Comptroller of the Currency’s Fiscal Years 2004
 and 2003 Financial Statements, OIG-05-003, 11/4/2004



          Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005                     31
                        Statistical Summary

Listing of Audit and Evaluation Reports Issued
October 1, 2004, through March 31, 2005

Mint, Audit of the United Sates Mint’s Schedule of Custodial Gold and Silver
Reserves as of September 30, 2004 and 2003, OIG-05-004, 11/5/2004

BPD, FINANCIAL MANAGEMENT: Report on the Treasury Bureau of the Public
Debt Trust Fund Management Branch Schedules for Selected Trust Funds for the
Period October 1, 2003 to September 30, 2004, OIG-05-005, 11/6/2004

Departmental Offices, Audit of the Department of the Treasury’s Fiscal Years 2004
and 2003 Financial Statements, OIG-05-007, 11/15/04

FMS, Audit of the Financial Management Service’s Fiscal Years 2004 and 2003
Schedules of Non-Entity Government-Wide Cash, OIG-05-008, 11/15/04

FMS, Audit of the Financial Management Service’s Fiscal Years 2004 and 2003
Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue,
OIG-05-009, 11/5/04

Departmental Offices, Audit of the Department of the Treasury’s Special-Purpose
Financial Statements for Fiscal Year 2004, OIG-05-010, 11/18/04

Departmental Offices, Agreed-Upon Procedures for the Department of the
Treasury’s Fiscal Year 2004 Intragovernmental Activity and Balances, OIG-05-014,
12/2/04

Departmental Offices, Audit of the Exchange Stabilization Fund’s Fiscal Years
2004 and 2003 Financial Statements, OIG-05-015, 12/3/04

TEOAF, Audit of the Department of the Treasury Forfeiture Fund’s Fiscal Years
2004 and 2003 Financial Statements, OIG-05-016, 12/13/04

Departmental Offices, Management Letter for Fiscal Year 2004 Audit of the
Department of the Treasury’s Financial Statements, OIG-05-017, 12/14/04

OTS, Audit of the Office of Thrift Supervision’s Fiscal Years 2004 and 2003
Financial Statements, OIG-05-018, 12/14/04

CDFI Fund, Audit of the Community Development Financial Institutions Fund’s
Fiscal Years 2004 and 2003 Financial Statements, OIG-05-019, 12/14/04

BEP, Audit of the Bureau of Engraving and Printing’s Fiscal Years 2004 and 2003
Financial Statements, OIG-05-020, 12/15/04


32      Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
                        Statistical Summary

Listing of Audit and Evaluation Reports Issued
October 1, 2004, through March 31, 2005

Office of DC Pensions, Audit of the Office of D.C. Pensions’ Fiscal Years 2004 and
2003 Financial Statements, OIG-05-021, 12/16/04

Departmental Offices, FINANCIAL MANAGEMENT: Department of the Treasury
Payments for Water and Sewer Services Provided by the District of Columbia Were
Made Timely for the Second Quarter of Fiscal Year 2005, OIG-05-023, 1/14/05

Departmental Offices, Management Letter for the Fiscal Year 2004 Audit of the
United States Mint’s Schedule of Custodial Gold and Silver Reserves, OIG-05-029,
3/10/05

Mint, Audit of the United States Mint’s Fiscal Years 2004 and 2003 Financial
Statements, OIG-05-031, 3/15/05

Information Technology Audits and Evaluations

Departmental Offices, INFORMATION TECHNOLOGY: Evaluation of Treasury’s
FISMA Implementation for Fiscal Year 2004, OIG-CA-05-001, 10/5/04

BEP, INFORMATION TECHNOLOGY: Additional Efforts Needed to Mitigate
Security Vulnerabilities in the Bureau of Engraving and Printing’s Network and
Systems, OIG-05-024, 3/4/05, LOU

Performance Audits and Evaluations

Mint, MANUFACTURING OPERATIONS: Mint’s Standard A-76 Competition Study
for the Preparation of Ready-to-Coin Planchets Is Delayed and Requires Significant
Actions to Complete, OIG-05-002, 10/29/04

Departmental Offices, REVENUE COLLECTION: Formalizing the Review Process
Could Better Ensure Continued Treasury Oversight of Customs Revenue Activity,
OIG-05-006, 11/8/04

FMS, GOVERNMENT-WIDE FINANCIAL MANAGEMENT SERVICES: The Financial
Management Service Has Addressed Recommendations Controls Over the Access,
Disclosure, and Use of Social Security Numbers by Third Parties (Follow-Up on
OIG-03-083), OIG-05-022, 12/20/04

FinCEN, TERRORIST FINANCING/MONEY LAUNDERING: Status Report on the
Establishment of the Financial Crimes Enforcement Network (FinCEN) Office of
Compliance, OIG-05-030, 3/10/05


        Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005   33
                        Statistical Summary

Listing of Audit and Evaluation Reports Issued
October 1, 2004, through March 31, 2005

TFFC, TERRORIST FINANCING/MONEY LAUNDERING: Office of Terrorist
Financing and Financial Crimes Needs to Refine Measures for Its Performance
Budget and Implement a Data Collection and Reporting System, OIG-05-032,
3/23/05

FinCEN, Heightened Management Attention Needed Over Long Standing Suspicious
Activity Report Data Quality Problems, OIG-05-033, 3/23/05

FinCEN, TERRORIST FINANCING/MONEY LAUNDERING: Additional Outreach and
System Enhancements are Needed to Encourage Greater Use of FinCEN’s BSA
E-Filing, OIG-05-034, 3/31/05, $48,000,000 S

Supervised Contract Audits

OCC, Contract Audit: Evaluation of Costs Incurred for Metrica’s Fiscal Year Ended
September 30, 2001, OIG-05-011, 11/29/04

Departmental Offices, Contract Audit: Evaluation of Costs Incurred for Metrica’s
Fiscal Year Ended September 30, 2002, OIG-05-012, 11/29/04

BEP, Contract Audit: Evaluation of Haws and Tingle General Contractors, (HTGC)
Proposal for Incurred Costs and Claimed Extended Overhead Costs, Related to
Contract TEP-01-30 Modifications 0098 and 0102, OIG-05-013, 11/29/04,
$238,966 Q

BEP, Contract Audit: Examination of Johns Hopkins University/Applied Physics
Laboratory’s Costs Incurred for Fiscal Year Ending September 30, 2003, as Related
to BEP Contract TEP 01-020, OIG-05-025, 3/3/05

FMS, Contract Audit: Evaluation of Costs Incurred for Computer Sciences
Corporation (CSC) Civil Division for Fiscal Year Ended March 31, 2000,
OIG-05-026, 3/3/05

Departmental Offices, Contract Audit: Audit Report on Metrica, Incorporated’s
Contract Audit Closings for TOS-94-25 and TOS-91-31, OIG-05-027, 3/3/05,
$41,690 Q

BEP, Contract Audit: Audit Report on Benmol Corporation’s General Services
Contract Board of Appeals (GSCBA) Claim 16372-TD on Contracts TEP-97-23 and
TEP-02-10, OIG-05-028, 3/3/05, $694,614 Q



34      Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
                                   Statistical Summary

 Listing of Audit and Evaluation Reports Issued
 October 1, 2004, through March 31, 2005

 Departmental Offices, Contract Audit: Financial Capability Risk Assessment of
 Metrica, Incorporated, OIG-CA-05-002,11/30/04

 Audit Reports Issued with Questioned Costs
October 1, 2004, to March 31, 2005 (Dollars in Thousands)

                                                                                 Total
                      Category                             No. of        Questioned           Unsupported
                                                          Reports          Costs                 Costs
For which no management decision had been
made by beginning of reporting period                               3           1,151              0

Which were issued during the reporting period                       3             975              0
Subtotals                                                           6           2,126              0
For which a management decision was made
during the reporting period                                         4           1,390              0

    dollar value of disallowed costs                                0                0             0
    dollar value of costs not disallowed                            4           1,390              0
For which no management decision had been
made by the end of the reporting period                             2             737              0

    For which no management decision was
    made within 6 months of issuance                                0                0             0

“Questioned costs” denotes that one or more of the following three situations exist: (1) an alleged violation of a
provision of a law, regulation, contract, grant, cooperative agreement, other agreement or document governing the
expenditure of funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate
documentation; or (3) a finding that the expenditure of funds for the intended purpose is unnecessary or
unreasonable. During the period, there were no reports with unsupported costs.




            Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005                            35
                                   Statistical Summary
Contract Audits Completed
October 1, 2004, through March 31, 2005

               Pre-Award Audits                        Costs Incurred Audits             Other Contract Audits
                                     Funds to be
                      Number                           Number        Questioned         Number         Questioned
     Entity                             Put to
                     Completed                        Completed        Costs           Completed         Costs
                                      Better Use
BEP                       0                    $0          2           $238,966               1       $694,614
Departmental                                   $0
                          0                                2                     $0           2         $41,690
Offices
FMS                       0                    $0          1                 $0               0             $0
Totals                    0                    $0          5           $238,966               3       $736,304
These monetary amounts are reflected in the table on monetary benefits from OIG audits in the Summary of
Activities Table. Treasury bureau requests for pre-award, costs incurred, and other contract audits are referred to
the OIG. The OIG has the option to perform the audits, refer the audits to DCAA and other government audit
agencies, or contract with an IPA. DCAA performed 8 audits, which questioned $974,270 in Treasury contract
costs. The contracting officers did not agree that the disallowed cost for one contract amounting to $238,966
should not be disallowed. In addition, the contracting officer agreed those costs for $1,151,801 from prior period
should not be disallowed.




Audit Reports Issued with Recommendations that
Funds be Put to Better Use
October 1, 2004, through March 31, 2005 (Dollars in Thousands)

                                                          No. of                                      Revenue
                     Category                                            Total         Savings
                                                         Reports                                    Enhancement
For which no management decision had been                      0           0              0                0
made by the beginning of the reporting period
Which were issued during the reporting period                  1        48,000        48,000               0
Subtotals                                                      1        48,000        48,000               0
For which a management decision was made
                                                               1        48,000        48,000               0
during the reporting period
Dollar value of recommendations agreed to by
                                                               1        48,000        48,000               0
management
     based on proposed management action                       1        48,000        48,000               0
     based on proposed legislative action                      0           0              0                0
Dollar value of recommendations not agreed
                                                               0           0              0                0
to by management
For which no management decision has been                      0           0              0                0
made by the end of the reporting period
    For which no management decision was
                                                               0           0              0                0
     made within 6 months of issuance
A recommendation that funds be put to better use denotes funds could be used more efficiently if management took
actions to implement and complete the recommendation including: (1) reduction in outlays, (2) de-obligations of
funds from programs or operations, (3) costs not incurred by implementing recommending improvements related to
operations, (4) avoidance of unnecessary expenditures noted in pre-award review of contract agreements, (5) any
other savings which are specifically identified, or (6) enhancements to revenues.

36            Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
                         Statistical Summary

Previously Issued Audit Reports Pending Management Decisions
As of March 31, 2005 (Dollars in Thousands)

There are no previously issued Audit Report pending Management Decisions for this reporting
period.


Significant Revised Management Decisions
October 1, 2004, to March 31, 2005

There were no significant revised management decisions during the period.


Significant Disagreed Management Decisions
October 1, 2004, to March 31, 2005

There were no management decisions this period with which the Inspector General was in
disagreement.




         Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005   37
                             Statistical Summary

     Reference to the Inspector General Act of 1978, as Amended


        Reference                                      Requirement                             Page
     Section 4(a)(2)      Review of legislation and regulations                                  1
     Section 5(a)(1)      Significant problems, abuses, and deficiencies                       5-24
     Section 5(a)(2)      Recommendations with respect to significant problems, abuses, and    5-24
                          deficiencies
     Section 5(a)(3)      Significant unimplemented recommendations described in previous      29-31
                          semi-annual reports
     Section   5(a)(4)    Matters referred to prosecutive authorities                          27-28
     Section   5(a)(5)    Summary of instances where information was refused                    31
     Section   5(a)(6)    List of audit reports                                                31-35
     Section   5(a)(7)    Summary of significant reports                                       5-24
     Section   5(a)(8)    Audit Reports with questioned costs                                   35
     Section   5(a)(9)    Recommendations that funds be put to better use                       36
     Section   5(a)(10)   Summary of audit reports issued before the beginning of the
                                                                                               N/A
                          reporting period for which no management decision has been made
     Section 5(a)(11)     Significant revised management decisions made during the reporting    37
                          period
     Section 5(a)(12)     Management decisions with which the Inspector General is in           37
                          disagreement
     Section 5(a)(13)     Instances of unresolved FFMIA non-compliance                          6
     Section 5(d)         Serious or flagrant problems, abuses or deficiencies                 N/A
     Section 6(b)(2)      Report to Secretary when information or assistance is unreasonably   N/A
                          refused




38       Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005
                                   Acronyms

AGVA                Attorney General for the Commonwealth of Virginia
ATSB                Air Transportation Stabilization Board
BAU                 Blanking, Annealing, and Upsetting
BEP                 Bureau of Engraving and Printing
BPD                 Bureau of the Public Debt
BSA                 Bank Secrecy Act
BSA E-Filing        BSA Direct E-Filing
CDFI Fund           Community Development Financial Institutions Fund
CFO                 Chief Financial Officer
CIO                 Chief Information Officer
CTR                 Currency Transaction Report
CBP                 U.S. Customs and Border Protection
DC                  District of Columbia
DCAA                Defense Contract Audit Agency
DHS                 Department of Homeland Security
DO                  Departmental Offices
EOTF/FC             Executive Office of Terrorist Financing and Financial Crimes
ESF                 Exchange Stabilization Fund
FBI                 Federal Bureau of Investigation
FDIC                Federal Deposit Insurance Corporation
FFB                 Federal Financing Bank
FFMIA               Federal Financial Management Improvement Act of 1996
FFMSR               Federal Financial Management Systems Requirements
FinCEN              Financial Crimes Enforcement Network
FISMA               Federal Information Security Management Act
FMS                 Financial Management Service
FTE                 Full-time Equivalent
GAAP                Generally Accepted Accounting Principles
GAO                 Government Accountability Office
GMRA                Government Management Reform Act of 1994
GPRA                Government Performance and Results Act
HSA                 Homeland Security Act
IGATI               Inspectors General Auditor Training Institute
INS                 Immigration and Naturalization Service
IPA                 Independent Public Accountant
IRS                 Internal Revenue Service
IRS-CI              IRS Criminal Investigations
Mint                U.S. Mint
MOU                 Memorandum of Understanding
MSB                 Money Service Business
OA                  Office of Audit
OC                  Office of Counsel
OCC                 Office of the Comptroller of the Currency
OFAC                Office of Foreign Assets Control
OI                  Office of Investigations
OIA                 Office of Intelligence and Analysis
Tr easury’s Office of Inspect or Gener a l Sem i annual Report – Mar c h 2005      39
                                   Acronyms
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
OPB                 Office of Performance Budgeting
OTS                 Office of Thrift Supervision
PCIE                President’s Council on Integrity and Efficiency
PKI                 Public Key Infrastructure
PWS                 Performance Work Statement
RAGE                Regional Area Gang Enforcement Unit
SAR                 Suspicious Activity Report
SEACATS             Seized Assets and Case Tracking System
Secret Service      U.S. Secret Service
TEOAF               Treasury Executive Office for Asset Forfeiture
TFF                 Treasury Forfeiture Fund
TFFC                Office of Terrorist Financing and Financial Crimes
TFI                 Office of Terrorism and Financial Intelligence
TFMB                Trust Fund Management Division, BPD
TIER                Treasury Information Executive Repository
TIGTA               Treasury Inspector General for Tax Administration
TO                  Treasury Order
Treasury             Department of the Treasury
TTB                  Alcohol and Tobacco Tax and Trade Bureau
USA                  United States Attorney
USAO                 United States Attorney’s Office
USC                  United States Code
USPIS                U.S. Postal Inspection Service
UQ                   Unqualified Opinion
WCF                  Western Currency Facility, BEP




40        Treasur y’s Off i ce of Inspect or Gener al Semiannual Report – Mar ch   2005
Congress Recognizes the Accomplishments of the Inspectors General
Congress Recognizes the Accomplishments of the Inspectors General




                The Main Treasury Building’s long colonnade is perched high upon the
                ground story base that skims 15th Street, creating a strong horizontal
                      facade that designer Robert Mills considered “both grand and
                       imposing.” By the early 1830’s, the Treasury’s distinctive
                 uninterrupted colonnade appeared in only a few buildings in America,
                  never used before in federal architecture in Washington. The thirty
                 columns retain its repetitious impact, even after the pediments at the
                North and South were added with the later extensions to the Treasury.
                   (from Office of the Curator website, Department of the Treasury)
 contact us

Headquarters
Office of Inspector General
1500 Pennsylvania Avenue, N.W.,
Room 4436
Washington, D.C. 20220
Phone: (202) 622-1090; Fax: (202) 622-2151

Office of Audit
740 15th Street, N.W., Suite 600
Washington, D.C. 20220
Phone: (202) 927-5400; Fax: (202) 927-5379

Office of Investigations
740 15th Street, N.W., Suite 500
Washington, D.C. 20220
Phone: (202) 927-5260; Fax: (202) 927-5421

Office of Counsel
740 15th Street, N.W., Suite 510
Washington, D.C. 20220
Phone: (202) 927-0650; Fax: (202) 927-5418

Office of Management
740 15th Street, N.W., Suite 510
Washington, D.C. 20220
Phone: (202) 927-5200; Fax: (202) 927-6492

Eastern Field Audit Office
408 Atlantic Avenue, Room 330
Boston, Massachusetts 02110-3350
Phone: (617) 223-8640; Fax (617) 223-8651

Western Field Audit Office
333 Market Street, Suite 275
San Francisco, California 94105
Phone: (415) 977-8810; Fax: (415) 977-8811




                                             Treasury OIG Hotline
                                             Call Toll Free: 1.800.359.3898

                                             Treasury OIG Web Page

                                             OIG reports and other information are now
                                             available via the Internet. The address is
                                             http://www.treas.gov/offices/inspector-general
